                           CLOSEOUT FOR M-93040022


        Thls case was brought to the attention of OIG on April 7, 1993, by
                                                                 The Associate Provost for
                                                              an inquiry into an allegation
against the subject, r         o           f misrepresenting his terminal degree in an NSF
proposal. The subject was a                                           m      t the ~nst~tut~on
The Associate Provost said that the inquiry had found substance to the allegation and the
institution was proceeding with an investigation.

       After reviewing the institution's investigation report, OIG concluded that further
information was required and initiated its own investigation. OIG's investigation report and
the NSF Deputy Director's March 26, 1996, letter reflecting her decision constitute the
closeout for this case.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                    Page 1 of I
                              NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON. VIRGINIA 22230




                                               March 26, 1996

      OFFICE OF THE
     DEPUTY DIRECTOR



    CERTIFIED MAIL     --   RETURN RECEIPT REOUESTED




    Re:   Notice of Misconduct in Science Determination


    The ~ationalScience Foundation's Office of Inspector General
    (OIG) issued an Investigation Report on September 26, 1995 in
    which it found that you submitted a proposal to the National
    Science Foundation in which you misrepresented your educational
    credentials. ( A copy of the investigative report is enclosed).
    OIG's finding is based on its own inGestigatibn and an
    investigation b        y        %   Specifically, OIG concluded
    that vou falselv stated that vou hold a Master's dearee from the

    In your defense, you state that you thought you had completed the
    substantive work towards the degree and deny that you knowingly
    falsified your credentials. You acknowledge, however, that you
    were negligent in not following up w i t h to ensure that you
    received credit for coursework required to earn your Master's
    degree or to verify that you actually received your degree. We
    concur with OIG that your failure to verify for over twenty years
    whether you ever completed the requirements for the Master's
    Degree or received the Master's Degree was at a minimum grossly
    negligent.
    ~isconhuctin Science and Proposed Sanctions
    Under NSF's regulations, "misconduct" is defined to include
    "fabrication, falsification, plagiarism, or other serious
    deviation from accepted practices in proposing . . . activities
    funded by N S F . " 45 CFR §689.1(a). Your submission of a proposal
    containing false statements about your educational credentials
    constitutes falsification and is a serious deviation from
    accepted practices. Consequently, I find that you committed
1   misconduct in science.
    NSF's regulations establish three categories of actions (Group I ,
    11, and 111) that can -be taken in response to a finding of
    misconduct. 45 CFR §689.2(a).- Group I actions, the least severe
of the sanctions, include letters of reprimand and requiring
certifications or assurances of accuracy or compliance with
particular requirements. 45 CFR §689.2(a)(1).
In deciding what response is appropriate, NSF has considered the
seriousness of the misconduct; whether it was deliberate or
careless; whether it was an isolated event or part of a pattern;
and whether the misconduct affects only certain funding requests
or has implications for any application for funding involving the
subject of the misconduct finding. See 45 CFR 5689.2 (b).
You misrepresented your educational credentials in one proposal
to the Foundation and three proposals to the Public Health
Service. This is mitigated by the fact that although you were
never awarded the degree, you did complete substantial coursework
towards the degree.
Based on the above facts, we will require that if you are the
principal investigator or co-principal investigator on any
proposal submitted to NSF prior to March 1, 1997, you must
separately certify, in writing, that all the information in the
proposal is correct to the best of your knowledge. The written
certification should be sent to the Assistant Inspector General
for Oversight, 4201 Wilson Boulevard, Arlington, Virginia, 2230,
at the same time that the proposal is submitted to NSF.
Procedures Governinq Appeals
You have 3 0 days after receipt of this letter to appeal this
decision in writing, to the Director of the Foundation. 45 CFR
§689.9(a). Any appeal should be addressed to the Director of the
National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. For your information, we are attaching a copy of
the applicable regulations. If you have any questions about the
foregoing, please call Lawrence Rudolph, Acting General Counsel,
at (707) 306-1060.
                               Sincerely,


                            ~ n r kC . Petersen
                               Deputy Director
Enclosures
                    CONFIDENTIAL



                       REPORT
    NSF OIG INVESTIGATION




                  OIG Case Number M93040022




                                        -   -




This document is lent to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may
be disclosed outside NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. $5 552,552a.
         REPORT OF INVESIlGATION INTO AN ALLEGATION OF
            MlSCONDUCT IN SCIENCE AND ENGINEERING


                                           SUMMARY
           The Off= of Inspector Cened (OIG) has determind t!weht(-t
s u b j s o , formerly o f ( t h e institution). misrepresented information in a grant
proposal funded by NSF. This conclusion is based on investigations by the institution and OIG.
OIG recommends that NSF make a finding of misawduct in science, send the subject a letter
of qrirnand notifying him that NSF has made that finding, and q u i r e him to provide
cerrificatiocl with each p r q m a l submitted to NSF for the next t h m y e a n that, to the best of his
knowledge, he has not misrepresented any information in the proposal.

                                        BACKGROUND




         The institutiocl's Authorized Organizational Representalive (AOR), following NSF's
Misconduct in Science and Engineering regulation, infonned OIG that the i n s t i t u t h had
received an allegation of m i d u c t in science based on information in the subject's proposal.
and an inquiry committee hiul determined that it had substance. The institution was proceeding
to the investigation stage as described by their misconduct in sc-   policy. Specifically. it was
alleged that the subject had misrtzpresented his academic credentials in his NSF grant proposal
when he falsely stated that he had received a Master's degxx. At the conclusion o f the
institution's investigalion, OIG m i v e d copies of the inquiry committee's report and the
investigation report.

                                                    ON'S I N O W
       The inquiry committee reviewed the subject's transcripts obtained from the
- ( t h e                            university). The transcripts showed the subject
the university f m ~ u ~ u s ~ - h r m ~ h J      U   I but~had ~never received a Master's dcgncc.
The inquiry committee reviewed four federal grant proposals on which the subject was a PI o r
co-PI while he was employed by the institution:
on which he was the PI and
w which the subject was the PI
fourproposalsthesubject had                                                                see Tab
A. Appendix A). With his ~ N S and        F ~~S-PHS       proposals, the sub*   lisaed his degree
as an M.B.A. With his d               a    PPHS pmposils. he lisfed his degree as an M.S. The
inquiry axnminee wed thai the sub@ hd also i n d i e d that he had an M.B.A. degree on his
job application to the institution (see Tab A, inquiry cornminee's m p r t page 3).

        The subjecl's response to the allegation (see Tab A) was that he

                                                     e d holding a graduate business
        'never knowingly o r willfully m i s ~ ~ t [his]
        degree f m [the university] to anyone ;ll any time. we knew] that [he]
        complefed all required oourses and mpirrwnents and that [his] record should
        rellect this. me was] as puzzled as anyow else by the a p p a m t problem.'

        The subject explained that,   as a graduate student af the university. he

        'had been taking classes that fulfilled the r e q u i m t s for an M.B.A. as defined
        by the 'Business School' progm; however, ar some point near the end of [his]
        course w o k and. [he thought], coincident with the degree requirement changes
        anendant upon the school's mrgan'mion, [he] changed [his] degree program
        f m an M.B.A. to a M.S. in Information Sciences ([he was] unsure if this was
        the exad title of this &gee program; it [did],however, convey, the nature of the
        program)-'

        The subjed explained his change of Master's programs o c c u d after he met with a
graduate school program administrator t o discuss his pduatiocr r e q u i m t s . T h i s ' m v e ~ t i o n
with the p m p m administrator, he explained, resulted in his switching from an M.B.A. to an
M.S. &gnx because the change entailed 'fewer classes o r different classes.' The subject said
that his conversation with the pmgmn administrator

        'afirrned that. if [he] comple~edthe incomplete grade in Business, Labor and
        Government, (he] would meet the degree requirements.'

The subjea claimed that he finished his uncompleted course and lefi the university to begin a
new job. Over the next several years he said he heard nothing f m the university about his
degree. He said that he did not think about the Masler's degrr=e and just assumed that he had
m i v e d it.

       He explained that al the time he changed Masler's pmgmms the degree requirements for
the program he was switching to we= changing and he =lied on the program adminislra~or's
advice. He said it was difficult to remember all the details after twenty years but that he had
always believed that he had 'an MS c k j p x in Computing & I n f o r m a t h S c ' m ' (24 Febnrary
1993 h e r ) . The sub*    explained that he planned to return to the university p e m l l y to
correct the situation.

        The inquiry amminee's report indicated that the subject's university transcrip showed
that he had completed lwelve oourses in the School of Business Administration that was renamed
the School of Management. It also showed that the course the subject claimed he had
completed. Business Labor and Government. was still listed with a g d e of incomplete.

         In his 24 February 1993 letter, the subject claimed that the m r s e with the incomplete
grade and one summer Extension course, which he had completed but which did not appear on
his transcript, would have counted toward his &px. He also said that he did not have a good
explanation a m x r n i n g why he did not m f i r m that he had received his c@xe o r why he
indicated that he had an M.B.A. when he 'had (or thought [he] had) an M.S.,' ex-           that he
'was M the type of person in the early 1970s who paid much anentiocl to 'administrative
details*.' In his 6 March 1993 h e r , the subject said that the e a m for
                                                                       ~ his change f m listing
an M.B.A. degnse to an M.S.d e p x on his proQosals was 'purely persorral.' He explained that
as a -It     of a 1992 Internal Revenue Service tax audit that was the result of his poor record
keeping and his failure to 'pay anention to the details,' he decided to be more careful.
Consequently, whem completing s        u     w grant prqxsals,

       'Fleeping faith with [his] rwolve, [he) changed the d e p x to refled w h a ~[he]
       had actually obtained from [the university].'

       The inquiry committee determined that

       '[wlhatever interpretath [was) put ocl the information rn his transcript, and
       whatever he may have believed, the fact [was the university] did nor grant him
       a Master's degree.'

The inquiry committee . m l u d e d that t h e e was 'reason to believe that misconduct may have
occurred.' The subject resigned fnwn the institution about two w&          prior t o the completion
o f the inquiry comminee's repor\.

                                              ON'S INVESllGATION
       The investigation committee's report (see Tab B) recxxnmended that the institution accept
the inquiry committee's report. It agmed that

       '[eJven if [the subject's] argument that he had completed the substantive w o k
       toward the degrees is true, the s!a~ements in the grant proposals ur: materially
        false. '

        The investigation committee agreed with the inquiry committee thaf the subject's amdm
'constituted miscocducc as it amounts to 'falsifation' in 'proposing research' urder our
guidelines.' It assumed that because the subject had resigned, the institution was 'not in a
position to take any disciplinary action.'

       The subject re#         to the investigation m m i t t e e ' s q u e s t for oddi~ioclali n f o r m a t h
by reskating his earlier sbtement that he 'never consciously or willfully intended to rnistrpmen~
[his] degree status' (see Tab B). The institution's investigation r e ~ o r twas acce~tedby the
Provosr.

       The AOR confirmed that, because the subject had resigned f m the institution, no
funher actiocl was planned. The subject's NSF award

        'was an instmmentat-ion grant to support establishment o f a [regional computer '
        network] connection at [the institution]. Revieur o f the grant activities indame
        that the work was performed i n a satisfactory and appropriate manner. The grant
        pmvided no salary sup~ortto [the subject]."

                                        IG'S INVESDGATIQ&I
        OIG w m e to the subjecl prwiding him with a copy o f the institution's invesligafim
report and q u e s t i n g any information he might have obtained on his trip to the university that
would have established his having received the degrrse. The sub*       explained (seeTab C ) that
his trip was unsuccessful; he was unable to identify anyone at the university who could help
him. He said that he oouM not remember the name o f the individual who was rwpoclsible for
designing and appmving degree programs at that time. He claimed thaf he had been able to
determine that a course, Math for Management, which he had laken as an Extensiocl course
while at the university, had nol been properly added to his transcript and that it was now added
to his transcript.' However, the incomplete grade associated with the other class had na been
posted. He said there were no m r d s from that time.

      He reiterafed that late i n his graduate career, he worked with a university adminisIralor
who had advised him to change his dqpe program. He explained that he changed at that time
f m an M.B.A. to a Master o f S c ' i i n Accounting and Information Systems.

        OIG reviewed the subject's transcript and noted that he had a m l M in sixteen courses
designated as 'BUS ADM' or 'MGMT,' but had completed only twelve o f them. The t r a n x r i p
slated thal the subjea had 'MAJOR CHANGED FROM BUS ADM' as o f                             arc-
                                                                                          but i t
did not indicafe whal his new major was. The transcript also did nol indicate how many more
courses the sub*     would have needed to complete in order to be eligible for the degree. OIG
was unable to definitively determine the number o f counes the sub*      needed to compbe to
be eligibk for an M.S. However, given the number o f graduate courses the subject had
completed. i t is reasonable to assume that he was within one or two courses o f completion of
one o f the Master's p q p m s he described.




                                              -
        Finally, OIG was toM by the NSF program to which the sub+                         had submitted his



           'The subject pwided OIG with t             of a M   d   -transcript   t l u ~showed a course artitlad
' M a h m n t i c l for M u u g m m r * with a hgrdc of 'A:

                                                       4
   pl-        that there was no specified educational requirement for PIS.

                                              IG'S ANALBIS
            For NSP to make a finding of misconduct, a preponderance of the evidence must show
   t h a the subject committed culpable acts with a culpable state of mind. OIG believes that the
   prepocderance of the ev*khce indicates that the subject committed acts that fall under NSF's
   definition of m i d w in science, and that he did so with a culpable state of mind.



           The sub*     submitted four febeml agency proposals. On two of his p
   NSP and PHS proposals) he lined his c&pe as an M.B.A. while on his                 =  Is (the-
                                                                                      and -PHs
   proposals he listed it as an M.S. NSF's Misconduct in Science and Engineering regulation
   &fines m i d u c t in p a as a 'serious deviation from a w e d practice' associated with
   activities funded by NSF. The subject misrepresented his c m h t i a l s rn his proposal to NSF.
   Similarly, he m i s ~ ~ t his   e educational
                                     d           experkwe in three other federal proposals, orre o f
   which was funded. OIG believes that the x i e n t i f i community w r d s such misrepresentation
   as a serious deviation f m its standad for the preparation and submission of proposals. The
   subject's institution reached the corrclusion that the sub*    had committed misconduct. W e
   believe that NSF should endorse the institution's finding. In the case of the NSF pruposal, OIG
   does not consider the offense egregious because an M.S. &gnx was not a requirement for
   eligibility and the subject had compbed the majority of the q u i m n e n t s for that degnx.
   However, we believe that NSF should take action in this case. since mismpresentatiocu threaten
   the integrity of the peer miew process.

    STATE OF MIND

             OIG believes that the preponderance of the evidence indicates that the subject was at least
    grrwly negligent. He explained that he was not one to 'pay attention to details.' As such. on
    four federal grant proposals. he listed his highest formal educational achievement as a Master's




dna).
                             ,.
    dcgrce which he did nof attemp to verify and which he did not have. On his two p m p o v l
    submissiocls, one of which was to NSF, he indicated that he had received an M.B.A. degree
    fmm the university in               This was despite the f a that he had officially removed himself
    f m the M.B.A. degree program i n w h i k he was still r @we student. Funher, in his
                 f e d e r a l pmporals for funding. the subject changed his q - ~ t i o n      of his degrse
    from an M.B.A. to an M.S. He claimed thal this change was a coclseqwmce of his desire to be
    more attentive to details. However, as a part of his desire to improve details. he failed to verify
    with the university whether h e had received a degee and, if so, which degnee it was. We
    believe the subject was grossly negligent and displayed a conscious disregard for accurately
    c o m p k i n g his proposals for federal support. The subject's failure lo q u i r e specific knowledge
    about his degme situation, especially over twenty years, and his use of an M.B.A.degree on his
    two earlier p m p s a l s , that he himself admitted he had changed while in graduate school, cannot
    be dismissed as merely careless.
        OIG concludes that a p q o d e r a n c e of the eviderwx supports the finding that the subject
m i s ~ m e n t e dhis credentials in his NSF p m p s a l as well as in other proposals for federal
funding and that he was at leas( grossly negligent in doing so. OIG t h e d o r e concludes that the
subject commined misamdua as &fined in NSF's Misconduct in Science and Bngineering
regulation and recommends that NSP make a finding to that effect.



        In the subject's I Sepember 1995 rwponse to this investigation report (see Tab D) he
claimed that three additional classes listed in Tab A, Appendix B, Table 2 of the mpon were
also part of the curriculum authorized by the G d u a t e School of Management at the university.
He said that these thme courses plus the Mathematics for Management course,' which he also
too&,resulted in a course cmnt of '16 m h e r than I 2.' As staled previously in this report, OIG
found I ) no m r d of the specir~:Master's program the subject was pursuing, 2 ) no record of
the courses the university would accept toward the subject's Master's degrrse, and 3) no m r d
of the total number of courses necessary for the subjed to graduate. 'Ihc subject prwvided no
supporting evidence that changed any of the information p m t e d in this report.

      The sub@ stated that he was 'remiss o r negligent' in his failure to assure thal he had
1) completed course 1421, Business Labor and Mamgemnt, 2) 'property graduated,' and 3)
'prwperly' updated his resume. He strongly disagreed that he knowingly falsified his record.
He stated thaI he 'never intended to falsify anything.' As explained above, OIG believes that
the sub* was at least grossly negligent w h m he misrepresented himself as having an advanced
degree which he did not have on federal grant applications.



        Under 0689.2@) in NSF's Misconducf in Science and Engineering regdatiocl, NSF, upon
making a finding of misconduct, must consider the seriousness of the m i d m and whether
this was a part of a pattern of behavior. OIG believes that misrr=prcsentation of credentials is
seriously u m c q t a b l e in the scientific community.  In relation to other examples of
misrqmsentation, however, the subject's m i s ~ ~ t a t i oin nhis NSF pro~osalwas not an
egregious ad because an M.S. degree was not a requimment for eligibility and the subject had
completed the majority of the q u i ~ t for        s that            However, the subject's
misrepresentation is a serious deviation from acceped pmctice and he displayed a pattern of
misrepresenting his experience over several years.



   ' The draft repod di&
   '   One of lhc lh-   -
renuins rnrompleccd -=ding
                             lhc Mahematics fw M1-             c o w   on page 4. t&p.

                             i n d i d by (he nrbjacr as 'inchkd in h e -me
                              to h i t-p       (Tab A. TlMe 2 ) .
                                                                              count.'   1160 Intm f h s W i s t b .
       The institution took no action against the subject baause he resigned his position. OIG
believes that. in light of the subject's experierrce, he could apply for funds from NSF in the
future. Therefore, we believe this case warrants a Group I and G m p Il action. We
recommend that (1) NSF send a lener of q r i d to the subjea, a G m p I action (see
#689.2(a)(l)).stating that NSF has found that he has ammined m i d u c t in science and that
(2) NSF q u i r e for the next three years that all proposals to NSF which include the subject as
PI or *PI      be accompanied by a certiflcath by the subject to OIG that he has not
misrepresented any information in his proposals, a Grwp I1 action (see 6689.2(a)(2)).
